<html>
<title> - A REVIEW OF SEXUAL HARASSMENT AND MISCONDUCT IN SCIENCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                     A REVIEW OF SEXUAL HARASSMENT
                       AND MISCONDUCT IN SCIENCE

=======================================================================

                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON RESEARCH AND TECHNOLOGY

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                           Serial No. 115-49

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 


       Available via the World Wide Web: http://science.house.gov
       
       
       
                             _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-936 PDF               WASHINGTON : 2018             
       
       
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  AMI BERA, California
THOMAS MASSIE, Kentucky              ELIZABETH H. ESTY, Connecticut
JIM BRIDENSTINE, Oklahoma            MARC A. VEASEY, Texas
RANDY K. WEBER, Texas                DONALD S. BEYER, JR., Virginia
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
BRIAN BABIN, Texas                   JERRY MCNERNEY, California
BARBARA COMSTOCK, Virginia           ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DANIEL WEBSTER, Florida              MARK TAKANO, California
JIM BANKS, Indiana                   COLLEEN HANABUSA, Hawaii
ANDY BIGGS, Arizona                  CHARLIE CRIST, Florida
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
RALPH NORMAN, South Carolina
                                 ------                                

                Subcommittee on Research and Technology

                 HON. BARBARA COMSTOCK, Virginia, Chair
FRANK D. LUCAS, Oklahoma             DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             ELIZABETH H. ESTY, Connecticut
STEPHEN KNIGHT, California           JACKY ROSEN, Nevada
RALPH LEE ABRAHAM, Louisiana         SUZANNE BONAMICI, Oregon
DANIEL WEBSTER, Florida              AMI BERA, California
JIM BANKS, Indiana                   DONALD S. BEYER, JR., Virginia
ROGER W. MARSHALL, Kansas            EDDIE BERNICE JOHNSON, Texas
LAMAR S. SMITH, Texas
                            C O N T E N T S

                           February 27, 2018

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Barbara Comstock, Chairwoman, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........     4
    Written Statement............................................     7

Statement by Representative Daniel Lipinski, Ranking Member, 
  Subcommittee on Research and Technology, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    12

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    14
    Written Statement............................................    16

Statement by Representative Eddue Bernice Johnson, Ranking 
  Member, Subcommittee on XX, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................
    Written Statement............................................    18

                               Witnesses:

Ms. Rhonda Davis, Head, Office of Diversity and Inclusion, 
  National Science Foundation
    Oral Statement...............................................    21
    Written Statement............................................    23

Dr. Kathryn Clancy, Associate Professor, Department of 
  Anthropology, University of Illinois
    Oral Statement...............................................    30
    Written Statement............................................    32

Ms. Kristina Larsen, Attorney, Law Office of Kristina K. Larsen
    Oral Statement...............................................    44
    Written Statement............................................    46

Ms. Christine McEntee, Executive Director, American Geophysical 
  Union
    Oral Statement...............................................    62
    Written Statement............................................    64

Discussion.......................................................    70

             Appendix I: Answers to Post-Hearing Questions

Ms. Rhonda Davis, Head, Office of Diversity and Inclusion, 
  National Science Foundation....................................    94

Dr. Kathryn Clancy, Associate Professor, Department of 
  Anthropology, University of Illinois...........................    98

Ms. Kristina Larsen, Attorney, Law Office of Kristina K. Larsen..   103

Ms. Christine McEntee, Executive Director, American Geophysical 
  Union..........................................................   109


                     A REVIEW OF SEXUAL HARASSMENT



                       AND MISCONDUCT IN SCIENCE

                              ----------                              


                       Tuesday, February 27, 2018

                  House of Representatives,
            Subcommittee on Research and Technology
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Barbara 
Comstock [Chairwoman of the Subcommittee] presiding.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman Comstock. The Committee on Science, Space, and 
Technology will come to order. Without objection, the Chair is 
authorized to declare recesses of the Committee at any time.
    Good morning, and welcome to today's hearing entitled ``A 
Review of Sexual Harassment and Misconduct in Science.'' I now 
recognize myself for five minutes for an opening statement.
    Imagine being a young astronomer, and your dream of working 
with one of the most well-renowned astronomers in the world 
comes true. Then, imagine the horror when the professor you 
hope will be your mentor, who you've revered, turns out to be 
your tormentor, a predator. You are in his office and he tries 
to kiss you. You spur his advances, but later at a work dinner, 
he puts his hand on your leg and slides it up your thigh under 
the table. You try to report the behavior, but some at the 
university are more interested in protecting one of their most 
powerful and lucrative researchers. This actually happened. 
This is a real case. It took years for the professor, in this 
case a professor from Berkeley, to leave. But that young woman 
left the field of astronomy because of the harassment.
    Now, imagine if this were your daughter, your sister, your 
wife, or your mother, driven out of a dream career in a field 
with lifelong high earning potential. Sexual harassment, abuse 
of power, and intimidation in the workplace, classroom, or 
research field site is unacceptable in any situation. Whether 
it's in Congress, where we've been dealing with this also, or 
in the fields of science and technology, every worker has a 
right to a safe work environment, free of harassment, where one 
can learn and thrive in their environment.
    Concerns about sexual harassment occur against a backdrop 
of women continuing to lag in many STEM fields and occupations. 
Women filled 47 percent of all U.S. jobs in 2015, but hold only 
24 percent of STEM jobs. Only 23 percent of women with STEM 
degrees work in STEM fields.
    Can sexual harassment have a significant negative impact on 
the ability of female students and early career researchers to 
engage in research and to get these high-paying jobs on this 
path? That's what we want to look at here because we have been 
working here on this Committee, really on a bipartisan basis on 
bills where we are trying to get women into that pipeline at a 
very young age. We have wonderful STEM initiatives going down 
to preschool to make sure that we are having that kind of 
gender equity and racial equity. We want to make sure none of 
these things are going on. So we really appreciate the 
opportunity to have this hearing today.
    In this case, you know, with this person with such a 
prominent researcher in the United States, a quote from 
somebody in this case said, ``The stakes here couldn't be 
higher.'' We are working so hard to have gender parity in this 
field, and when the most prominent person is a routine 
harasser, it threatens a major objective we have nationally and 
with that pipeline.
    So over the last few months, we've had a watershed moment 
and really tried to open eyes to the systematic harassment and 
abuse in many different fields and workplaces.
    What has happened in Hollywood, in the media, and in other 
industries has opened the floodgates for women and men who have 
been afraid to speak in the past to come forward about 
predators in their workplace. I know recently we saw even 
something in a long story about the modeling industry and young 
women preyed upon and exploited and really some horrible things 
going on there.
    And in the last few months we've worked together, my 
colleagues and I, to reform the process of reporting sexual 
harassment in Congress and to create that zero-tolerance 
environment that we want in all workplaces. Democrats and 
Republicans, men and women, have been working to change the 
process so that victims have a safe place to turn and predators 
are no longer protected by taxpayer dollars or silence.
    Today is an opportunity to shine a light on how predatory 
and abusive behavior is affecting or may be affecting the 
science industry and the response that's going on here and the 
women who are here today to testify who have been active on the 
front of really promoting that zero-tolerance.
    Women in science are particularly vulnerable to harassment 
and abuse. Powerful scientists who manage large federal grants 
have enormous influence within universities and exert 
significant control over the education and training of young 
scientists. If a Ph.D. student is being harassed by her 
advisor, what safe avenues does she have for reporting the 
misconduct without derailing her education and career? How does 
a university respond to this when an abuser is a rainmaker for 
the university?
    And while I would note I have been saying ``her'' in some 
of these cases, we do understand there could be abuse on both 
sides of men or women.
    But as more and more victims come forward, I cannot help 
but wonder how many brilliant scientists, men or women, and 
their ideas we have lost in the STEM fields because of this 
because we know when people are harassed and leave their field, 
many of them don't return to their field. That is something 
common that we have seen in the study of harassment. So how 
many women have given up these good, lifelong, high-earning 
jobs? When we look at the overall wage gap, how--you know, 
when--this is particularly a field where we want to make sure 
women are staying in in this career field.
    Currently, there are laws and policies in place designed to 
protect individuals from gender-based discrimination and 
harassment in education, but we want to make sure the process 
is working right. Since October, the Science Committee has been 
investigating--and thank you to our staff who have been working 
on this--how federal science agencies and universities handle 
harassment complaints. So far, the Committee has found 
inconsistency in how different agencies deal with complaints 
and investigations, unclear policies and procedures that leave 
victims unsure of where to turn, and institutions more 
interested in checking the boxes of compliance rather than 
doing the right thing. A survey by the National Postdoctoral 
Association found that nearly 30 percent of postdoctoral 
candidates had experienced sexual harassment.
    I was pleased to see that, two weeks ago, National Science 
Foundation Director France Cordova, Dr. Codova, made a strong 
statement to the science community about zero tolerance. NSF 
also announced it is taking additional steps towards protecting 
scientists and students. We are fortunate to have a strong, 
accomplished woman leading NSF, and I appreciate her shining a 
light on the problem and acting quickly to respond.
    I think we all understand we are learning a lot as we go 
through this process. That certainly has been the case whether 
it's the media or Hollywood or those of us here in Congress, so 
we appreciate even though this has been a long-time problem, we 
are all learning how to deal with it in our different 
workplaces.
    So the purpose of this hearing is to learn how science 
agencies and research institutions are handling current 
complaints under current law and policies, assess the impact of 
harassment on women's participation in STEM and advancement, 
and discuss recommendations for improving the process, as well 
as the overall culture.
    Taxpayers spend millions of dollars a year on research and 
education programs to get young girls and young women 
interested in STEM. I meet young women eager to go into STEM 
careers from my district nearly every day. My 3-year-old 
granddaughter, her favorite place to go every week is the local 
children's science museum, so we all want to make sure that 
those little girls who are so excited at 2 and 3, when they 
step into that science museum, know they have a path in a 
career forward. I want to guarantee every one of them that they 
are given those tools.
    So I really look forward to hearing the testimony of our 
witnesses, and thank you so much for all that you're doing and 
for being here today.
    [The prepared statement of Chairwoman Comstock follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    Chairwoman Comstock. And I now recognize the Ranking 
Member, the gentleman from Illinois, Mr. Lipinski, for his 
opening statement.
    Mr. Lipinski. Thank you, Chairwoman Comstock, for holding 
this hearing, and thank you to our witnesses for being with us 
this morning to discuss this very important issue.
    The stories we've been hearing about widespread sexual 
harassment occurring across different workplaces, industries, 
and seemingly in every corner of our society are sickening. We 
must do all we can to fight the scourge of harassment, sexual 
or otherwise. There is much we need to do as a society to 
ensure that all individuals are treated with the dignity that 
they deserve. I'm hopeful that this societal moment in which we 
are collectively recognizing the scope of this problem will 
lead to significant real change.
    I want to thank Chairwoman Comstock for her comments and 
for her work that she has done here in Congress to help us to 
better handle and to combat sexual harassment in Congress.
    Today's hearing is specifically about sexual harassment and 
misconduct in the sciences. The issue of sexual harassment in 
the sciences is not new. It's a longstanding problem of 
mistreatment that violates individuals' dignity and is keeping 
some of the brightest minds from pursuing their ambitions, and 
thus impeding the progress of science. It is critical for this 
Committee and this Congress to find new and better ways to 
address sexual harassment and misconduct in the sciences.
    This conversation has taken on a new sense of urgency in 
recent years due to numerous high-profile revelations involving 
prominent scientists. Their individual stories have helped to 
bring this issue to light, and research shows that their 
experiences are not rare. A survey conducted by one of the 
panelists here today, Dr. Clancy, revealed that 35 percent of 
female scientists have experienced some form of harassment. On 
this Committee, we often talk about encouraging more women to 
pursue their interest in science. How might a young woman's 
decision to pursue science be affected when she learns she has 
a one-in-three chance of being sexually harassed during her 
career? I look forward to hearing more about this study and 
research into sexual harassment in the sciences, including the 
impact on the recruitment, retention, and advancement of women.
    A major challenge is the low rate of individuals reporting 
when they are harassed. A 2015 campus climate survey on sexual 
assault and harassment revealed that only eight percent of 
victims report their experiences. The most commonly cited 
reason for students not reporting the harassment was that they 
did not think anything would be done, and many junior 
scientists do not report harassment by their more senior 
colleagues for fear that doing so will negatively impact their 
careers.
    There's certainly--I understand from my time in academia 
and certainly as a--before that as a graduate student, the 
unevenness and the fear that, you know, everyone has about 
doing something that's going to damage their career. We cannot 
effectively address the problem of sexual harassment in science 
without a better understanding of the scope of the problem. One 
topic I hope we discussed today is how the reporting systems 
can be made more accessible and responsive.
    The National Academies is conducting a study to review the 
research on the impact of sexual harassment and to identify 
successful policy interventions. This is an important step to 
improving our understanding of how best to address sexual 
harassment to the benefit of individuals and the scientific 
enterprise as a whole. I look forward to recommendations the 
study panel will produce and to working with my colleagues on 
this Committee to implement them.
    In the meantime, universities, federal science agencies, 
and scientific societies all have a role to play in creating a 
more welcoming, safe, and inclusive environment for STEM 
students and researchers. Fortunately, promising changes are 
being made. For example, the National Science Foundation has 
proposed a change to its award terms and conditions, requiring 
universities to our findings of sexual harassment. NASA 
recently launched an anti-harassment campaign to assess and 
improve the training and coordination related to their 
antiharassment programs. And several scientific societies, 
including the American Geophysical Union, which is here with us 
today, have updated their codes of conduct and training 
programs to prohibit and prevent harassment.
    As a longtime supporter of women in the workplace, I'm 
encouraged to see progress being made on this issue. I look 
forward to a discussion on the additional cultural and 
structural changes that will foster a safe environment for all 
students and researchers. We cannot afford to lose another 
brilliant scientist because she did not feel safe in her lab, 
but even more important, no one should stand by idly while we 
have an opportunity to prevent harassment in any context.
    Thank you, and I yield back the balance of my time.
    [The prepared statement of Mr. Lipinski follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Thank you, Mr. Lipinski. And I thank 
you for your leadership role on this and for your unique 
experience because of your background and really understanding 
this issue. I really appreciate your work.
    And I now recognize the Chairman of the full Committee for 
a statement, Mr. Smith.
    Chairman Smith. Thank you, Madam Chairwoman, and also thank 
you for taking the initiative and having this hearing.
    Although federal law prohibits gender discrimination, 
including sexual harassment, a disturbing number of cases of 
inappropriate behavior and harassment of women in science 
occupations and studies have come to light. There must be fair, 
timely, and consistent procedures for investigating and 
adjudicating allegations of harassment. Unfortunately, we will 
hear this morning that such procedures are not always in place 
and are not uniformly administered. These inconsistencies 
create an environment where harassment and discrimination goes 
unchallenged in classrooms, labs, and workplaces. Individuals 
affected by such misconduct can suffer long-term harm in their 
education and careers, as well as to their mental and physical 
well-being.
    There are broader implications as well. Engaging more young 
women in STEM studies and STEM careers is essential to meeting 
our global competitive challenges in science and technology. 
Despite representing half of college graduates and half of the 
total U.S. workforce, women account for less than a quarter of 
America's STEM workforce.
    In the last few months, the Committee and the full House 
approved several bipartisan bills aimed at boosting interest in 
STEM subjects and opportunities among women, our military 
veterans, and other underrepresented groups. But efforts to 
boost STEM opportunities for women might be greatly hampered if 
there is a culture in science that does not respect and support 
them. It is the responsibility of the science community, 
universities, and federal science agencies to ensure there is a 
fair, functioning process under the law in place for harassment 
complaints and resolutions. It is their responsibility to take 
steps to ensure that classrooms, laboratories, and workplaces 
are safe.
    No taxpayer dollars should be awarded to a university 
researcher who engages in harassment and inappropriate behavior 
toward a colleague or a student under their charge. Regardless 
of the merits of a particular research project, all scientific 
research is undermined if misconduct is allowed to go 
unchallenged. And if there is a finding of research or 
workplace misconduct by a federally funded researcher, that 
information should be made public so that every research 
institution, federal agency, and student is aware of the 
finding.
    Last month, Ranking Member Johnson and I requested that the 
Government Accountability Office conduct a full study of 
federal grant-making agencies' compliance with relevant laws 
and policies for harassment, how agencies share relevant 
information, and identification of recommendations for better 
enforcement. I look forward to that report, in addition to the 
recommendations from today's witnesses.
    And I'll yield back.
    [The prepared statement of Chairman Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
 
    
    [The prepared statement of Ranking Member Johnson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairwoman Comstock. Now, let me introduce our witnesses. 
Our first witness today is Ms. Rhonda Davis, Head of the Office 
of Diversity and Inclusion at the National Science Foundation. 
Ms. Davis joined NSF in 2010 from the U.S. Department of 
Agriculture's Office of the Assistant Secretary for Civil 
Rights, where she served in several positions, including Acting 
Associate Assistant Secretary for Civil Rights. She holds a 
master's of science degree in agriculture economics from North 
Carolina Agriculture and Technical State University and a 
bachelor's of science and agriculture economics from the 
University of Arkansas at Pine Bluff.
    Our second witness today is Dr. Kathryn Clancy, Associate 
Professor of the Department of Anthropology at the University 
of Illinois. Dr. Clancy's research integrates life history, 
evolutionary medicine, and feminist biology to understand how 
modern environments influence women's health and well-being. 
She and her colleagues have empirically demonstrated the 
continued problem of sexual harassment and assault in the field 
sciences astronomy and planetary science. She also serves on 
the National Academy of Sciences Committee to address sexual 
harassment in the sciences. She was named one of Nature's ``10 
Most Influential Scientists'' in 2013, and has received local 
leadership awards from the Girl Scouts and YWCA. She received 
her PH.D in anthropology from Yale University, and a joint 
honors bachelor's degree in biological anthropology and women's 
studies from Harvard University.
    Ms. Kristina Larsen, our third witness, is an attorney in 
private practice. She has over 20 years of experience in higher 
education, human resources, and employment law, including 
serving as an Assistant Vice Chancellor at a university where 
she oversaw all aspects of human resources for academic 
employees. She has represented and advised individuals at 
numerous universities and academic institutions including UCLA, 
Stanford, the Smithsonian, Scripps Research Institute, and many 
more. Ms. Larsen received both a Bachelor of Arts in political 
science from the University of California San Diego, as well as 
her juris doctorate from the University of San Diego.
    Our final witness today is Ms. Christine McEntee, Executive 
Director of the American Geophysical Union, an international 
scientific society that represents 60,000 scientists seeking to 
promote discovery in earth and space science. Previously, Ms. 
McEntee has held leadership positions at the American Institute 
of Architects, the American College of Cardiology and its 
foundation, and the American Hospital Association. She was 
named CEO Update's ``CEO of the Year'' in 2016 and one of 
America's top women mentoring leaders. She graduated from 
Georgetown University and holds a master's degree in health 
administration.
    And I would also like to note that Mr. Billy Williams, also 
from the association--from the union--is also joining us today, 
and he is a constituent from Leesburg, so we thank you for 
joining us and for all of your good work. I appreciate you 
being here.
    So I now recognize Ms. Davis for five minutes to present 
her testimony.

                 TESTIMONY OF MS. RHONDA DAVIS,

            HEAD, OFFICE OF DIVERSITY AND INCLUSION,

                  NATIONAL SCIENCE FOUNDATION

    Ms. Davis. Good morning, Chairman Smith, Chairwoman 
Comstock, and Ranking Member Lipinski, and Members of the 
Subcommittee. I am Rhonda Davis. I'm the National Science 
Foundation's Office of Diversity and Inclusion Head. Thank you 
for the invitation to testify on sexual harassment in science 
and on the steps NSF has taken to ensure equitable and safe 
access, irrespective of gender or background, to research 
experiences in the STEM disciplines supported by our agency.
    NSF does not tolerate sexual harassment of any--or any kind 
of harassment within the agency at awardee organizations, field 
sites, or anywhere NSF-funded science and education are 
conducted. As the primary funding agency of fundamental science 
and engineer research in the United States, NSF recognized that 
to enable scientists, engineers, and students to work at the 
outermost frontiers of knowledge, the agency must be a role 
model for teamwork, fairness, and equity.
    That is why, earlier this month, NSF announced new steps to 
help eliminate sexual harassment from science and engineering. 
NSF will be proposing a new award term and condition to make it 
clear when an awardee organization finds that an NSF-funded 
investigator or coinvestigator has committed sexual harassment, 
NSF expects to be notified of that finding.
    Due to the importance of this issue, NSF is making the 
change a priority and fast-tracking this process. The new award 
term and condition will go into effect after completion of the 
Federal Register process, which includes a 60-day public 
comment period. Once that process is complete, all new awards 
and funding amendments on existing awards will include the new 
term and conditions, and all awardees must adhere to it. NSF 
expects all awardee organizations to establish and maintain 
clear standards of behavior to ensure a harassment-free 
workplace.
    To mine the best ideas, we've also recently instituted a 
cross agency special task force to examine and collect 
promising practices and model codes of conduct. We will be 
using one web portal, NSF.gov/harassment, to make it easier for 
the research community and the public to access important 
information. These new steps and resources will complement 
NSF's title IX compliance program, which we have bolstered in 
the recent years. Title IX requires schools to take steps to 
prevent and remedy sex-based harassment. If an institution is 
suspected of not complying with title IX, NSF and its federal 
partners may conduct a review of the institution. If an 
institution is in violation and refuses to take corrective 
action, their funding can be revoked.
    Like similar agencies, NSF conducts title IX compliance 
reviews of at least two funded organizations each year and 
makes its--these reports publicly available. NSF has also 
enhanced its training program for internal staff to provide 
guidance for an employee who may be notified of a title IX 
matter. In addition, our program offices receive training on 
sexual harassment during the merit review process training. NSF 
policies are meant to ensure that the actions of one do not 
negatively affect the careers of all.
    It is vitally important that we do not punish innocent 
award participants. If an awardee adjudicates a sexual 
harassment case in a way that results in the investigator being 
unable to fulfill the terms and conditions of his or her award, 
NSF will act to minimize the impact on others supported by the 
project, including students and postdocs.
    NSF is committed to doing everything within our power to 
help eliminate sexual harassment in science and engineering. 
NSF accounts for approximately 27 percent of the total federal 
budget for basic research conducted at U.S. colleges and 
universities and has been vital to many discoveries that impact 
our lives and drive the economy. However, we cannot and will 
not succeed in our mission if we do not eliminate unsafe 
research environments that upset the whole balance of the 
science ecosystem, harm our scientists, and impede the very 
progress of science itself.
    With the support of this Committee, the research community, 
and outside experts, NSF will continue to work to eradicate 
sexual harassment and to eliminate barriers to gender equity in 
science and engineering. Thank you and I'll be pleased to 
answer any questions.
    [The prepared statement of Ms. Davis follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    

    
    Chairwoman Comstock. Thank you. And I now recognize Dr. 
Clancy for five minutes to present her testimony.

                TESTIMONY OF DR. KATHRYN CLANCY,

        ASSOCIATE PROFESSOR, DEPARTMENT OF ANTHROPOLOGY,

                     UNIVERSITY OF ILLINOIS

    Dr. Clancy. Thank you, Chairwoman Comstock, and thank you 
for the opportunity to share my research and expertise with you 
today, and thank you for taking on such an important topic.
    I want to start by sharing a bit about what sexual 
harassment is, how it manifests in the sciences, and what I 
hope you'll help us do about it. Sexual harassment comes in two 
main forms: come-ons, which are unwanted sexual advances and 
sexual coercions; and putdowns, also called gender harassment, 
nonsexual behaviors that are crude or hostile regarding gender.
    While the come-ons are the types of behaviors you see in 
articles about Harvey Weinstein and in sexual harassment 
trainings, the majority of sexual harassment are in fact the 
putdowns. These are the kinds of behaviors most women in the 
workplace have experienced at least once in their lifetimes and 
many experience every day. The offensive remarks, subtle 
exclusions, requests to make coffee, yes, but also starting 
rumors, sabotaging a promotion, or ruining a career.
    One of the more recent cases of sexual harassment in the 
sciences is by alleged perpetrator David Marchant, a Boston 
University geologist who conducted fieldwork in Antarctica. 
This case involved horrifying and physical gender harassment, 
blowing volcanic ash into the already snow-blind eyes of a grad 
student, pushing her down a mountain multiple times, and 
throwing rocks at her if she dared go to the bathroom.
    There are a few conditions that make sexual harassment more 
common in the workplace. When workplaces are male-dominated not 
just in numbers but in culturally how they behave, sexual 
harassment happens more. When workplaces demonstrate that 
they're tolerant of sexual harassment by ignoring reporting, 
retaliating against reporters, or not sanctioning perpetrators, 
sexual harassment happens more. In 2016, the EEOC wrote a 
report that showed that only 1/4 of sexual harassment is 
reported, and of those who report, 3/4 of them faced 
retaliation.
    I study sexual harassment in the sciences because I am a 
scientist. I care about science, and I'm interested in the ways 
in which the manifestation of harassment varies by work 
context. But this is a problem not just of science but of 
American workplaces. In the sciences, sexual harassment looks 
like this: women having less access to their advisors, to the 
materials they need to conduct their research, and withstanding 
constant questioning of their intelligence and worth. I have 
stories from my research of sabotaged lab equipment, of 
intentional safety violations, of rumormongering, and yes, 
sometimes of sexual assault and rape.
    What bothers me the most about how it usually looks in 
science is that we wrap sexual harassment up in this package 
that we claim is intellectual rigor and meritocracy. It's like 
we think that rudeness and cruelty are the same thing as being 
smart without noticing that we direct these cruelties more at 
women than men, more at women of color than white women, more 
of sexual minorities than straight folk.
    We say that asking a nasty question at a colloquium is how 
we push people to be better scientists. We say when we see an 
all-male research team that it must just be that the best 
scientists for the job are all men. We say that the sole woman 
in a department is the affirmative-action hire. We spent all 
this taxpayer money supporting recruitment of women to STEM 
fields and supporting their educations only to lose that money 
when they are forced out by damaging behaviors. We also lose 
their diversity of perspectives and thus end up with a flatter, 
more boring, less complex, and less innovative American 
science.
    Too often I've heard that harassment and bad behavior are 
the price we must pay for star scientists, but are they really 
doing star science? When I'm writing my papers or analyzing my 
data on sexual harassment in the sciences, I'm thinking of the 
victims and the science we've lost. We've lost their ideas; 
we've lost their perspectives. We scientists do this work 
because we want to give the best of ourselves to the 
advancement of science. Women keep trying to give us their 
best, and we blow ash in their faces and push them down 
mountains.
    The way we've tried to fix this problem isn't working. We 
have decades of evidence to prove it. Let's move away from a 
culture of compliance and towards a culture of change. Let's 
convince universities to worry less about litigation and more 
about legacy. Do you want to be on the right side of history 
when it comes to how you center victims and how you improve the 
lives of women? Do you want to be the hub for exciting 
groundbreaking science? Do you want to be the place everyone 
wants to work at or the place all women warn each other about?
    I hope you will join me in encouraging universities and 
other science workplaces to take a values-into-action approach 
to eliminating sexual harassment. That means locational, 
contextual solutions that create respectful and equitable 
climates for everyone. That means focusing on the behaviors we 
want to see, not creating fear around the legally actionable 
ones, and that means creating confidential avenues for women to 
speak and to be heard.
    I just want to say one last thing because this testimony is 
public record and it's important that I say it. In a climate 
where perpetrators are being centered and where the 
conversation has been on reporting and speaking up, I want to 
say today to victims that I see you. I see whether or not you 
report, whether or not you've been one of my studies. I see 
when you email me, tweet at me, when you stay silent. I see you 
and I think of you and I thank you for getting up every day and 
I derive strength from you. I hope you know how much you mean 
to those of us who do this work. Thank you.
    [The prepared statement of Dr. Clancy follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
      Chairwoman Comstock. Thank you very much. And I now 
recognize Ms. Larsen.

               TESTIMONY OF MS. KRISTINA LARSEN,

           ATTORNEY, LAW OFFICE OF KRISTINA K. LARSEN

    Ms. Larsen. Thank you. Chairwoman Comstock and Ranking 
Member Lipinski, thank you so much for having this hearing and 
for giving me the honor to talk to you today about sexual 
harassment and misconduct in the sciences.
    We are all here today because we are committed to the 
common goal of ensuring that women are able to succeed in STEM 
fields. Despite our collective efforts, we too often send these 
brilliant individuals barreling into a brick wall. And this 
wall is formed by a complex set of conditions, many exacerbated 
by the decentralized and individualized nature of science and 
many still inadequately addressed by our current discrimination 
laws and university policies.
    Gender-based discrimination and harassment predicated on 
sex stereotyping remains pervasive in science, yet it is nearly 
impossible to prove cause and effect because of the incremental 
ways in which these biases occur and then are laundered through 
so-called objective evaluation processes which are in turn 
given great deference by our courts.
    In addition, with very few checks and balances on 
individual faculty power, this power is easily abused. Abuse of 
power takes many forms: bullying, intimidation, spreading 
rumors, humiliation, changing feedback coupled with 
unreasonable expectations, just to name a few. Not all of these 
abusive conducts are considered illegal under our current 
discrimination laws even though, in my opinion, they are 
perpetrated because women and underrepresented individuals are 
more often perceived as safe targets.
    Even when the conduct is clearly prohibited under title IX, 
title VI, or title VII, significant problems remain in how 
these issues are reported and adjudicated. There are too many 
to talk about here today, but there are three that stand out to 
me as significantly important in women choosing to leave 
science or being forced out. The first is confusion over where 
to get help. The confusing organization of most universities, 
the splits between administrative functions and academic 
functions, and the added complications of shared governance 
make the complexity of finding the right person to help, if 
there is even one, especially daunting, especially given how 
many times a woman will be told by someone ``I'll take care of 
it,'' ``Don't tell anyone else,'' or ``I'll talk to him'' only 
to have nothing happen except perhaps they will be retaliated 
against even more.
    When ineffective processes are highlighted by the media or 
by faculty, a university often reacts by creating even more 
places for people to go, which only adds to the confusion. The 
amount of energy to simultaneously do as much as everybody 
else, fight back against the abuses you're facing, and try to 
find someone to help make the abuse stop is time-consuming and 
emotionally and physically draining. A dedicated legal advocate 
for those who are targeted for abuse, somebody not affiliated 
with the university but available to empower an advocate from 
the very beginning rather than at the end when most attorneys 
are involved may help shift the substantial power imbalance and 
reduce that sense of exhaustion, isolation, and betrayal and 
hopefully lead to quicker resolutions.
    The second is the secrecy of the proceedings. Without 
exception, every person I have advised or represented wanted 
only for the conduct they were experiencing to stop. They don't 
want to get anyone fired; they are not looking for retribution. 
They simply want to get on with their work and spare others 
from facing the same obstacles that they experienced, yet at 
every step they are encouraged not to formally report, not to 
disclose what they formally reported to others. The complainant 
may not be told what the outcome was or, more important for 
them, what the consequences that will be imposed are.
    The pressure not to report comes from peers, chairs, deans, 
even by title IX officers. Some are threatened by the abusers, 
who will flaunt their power and their money, or by the 
university's administration, who will almost always have more 
to fear from the powerful faculty bringing grant money than 
from the student or more junior faculty. Those targeted for 
abuse deserve to be able to tell others what happened to them. 
Under the cloak of secrecy, abusive conduct almost always 
becomes serial conduct.
    The third is the harm to the abused even when there is a 
successful finding. Even in the rare instances where the 
process has worked and a faculty member is found to have 
committed a violation of the policy, by the time that happens 
the complainant is exhausted. They are demoralized, isolated, 
and behind on their work. Others may have taken advantage of 
their vulnerability, and many of their peers in the field will 
fall into two categories: those who sympathize with the abuser 
because he is a great scientist or a good person and those who 
avoid her because they're not sure what to say, don't believe 
her, or wish to stay neutral in what they consider an 
interpersonal dispute.
    There is very few obligations to advocate or to 
rehabilitate the careers of women who have actually suffered 
this type of abuse, and they are often left entirely on their 
own to pick up the pieces. It is not hard to see why many of 
these incredibly smart women choose to take their talents 
elsewhere into a more supportive setting. For this to change, 
more resources and peer support needs to be targeted to those 
who were abused, in addition to the energy put into what the 
consequences are for the abused--abuser. And I hope that with 
the help and the leadership from both the funding agencies and 
the professional societies, we will be able to accomplish that.
    Thank you very much for your--allowing me to be here today.
    [The prepared statement of Ms. Larsen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
       
    Chairwoman Comstock. Thank you. And I now recognize Ms. 
McEntee for five minutes.

              TESTIMONY OF MS. CHRISTINE MCENTEE,

         EXECUTIVE DIRECTOR, AMERICAN GEOPHYSICAL UNION

    Ms. McEntee. Chairs Comstock and Smith, Ranking Members 
Lipinski and Johnson, and Members of this Committee, thank you 
so much for inviting the American Geophysical Union to testify 
on efforts we are taking to address sexual harassment in the 
scientists--in sciences. AGU is an international scientific 
society representing 60,000 members from 137 countries, and our 
mission is to promote discovery in earth and space science for 
the benefit of humanity.
    Harassment in academic environments, especially in 
scientific disciplines with limited diversity, is real and 
confirmed by research, as you have heard today. Research has 
also shown that harassment puts scientific careers at risk. The 
lack of support networks and well-defined resources for 
reporting and responding to harassment increases the 
vulnerability of those who have felt harmed and often fear 
reprisal for reporting.
    For AGU, this is an issue that cuts close to home. The 
earth and space sciences typically involve remote field 
settings. In the field whereas--accepted workplace norms are 
difficult to enforce. When coupled with a male-dominated 
environment and power structures, these situations can amplify 
the problems, making women and underrepresented groups even 
more vulnerable to harassment.
    Right now, the earth and space sciences only have 27 
percent of the field that is women, more than it was 40 years 
ago but drastically below the U.S. population as a whole and 
other STEM disciplines. While women today account for nearly 50 
percent of our members under the age of 30, AGU recognizes the 
need to be more proactive to continue this trend.
    As a scientific association that represents our members and 
tries to chart a vision for the future, we have a 
responsibility to promote a safe, inclusive, and professional 
environment. A failure to uphold these principles harm 
scientific credibility, the well-being of individual 
scientists, and the entire scientific enterprise.
    AGU first took up the issue of sexual harassment as 
scientific misconduct in 2015 and 2016 when several cases broke 
in the news media. As a result of discussions that AGU held 
with our board and members on harassment and our community, we 
convened a task force and ultimately in 2017 formally adopted a 
revised ethics policy. The new language defines harassment, 
bullying, and discrimination as scientific misconduct and 
redefines established norms of acceptable scientific behavior. 
Violations of this policy can now be addressed through 
professional sanctions such as ineligibility for or loss of 
honors, awards, and volunteer opportunities and also 
membership. Our members have voiced their strong support for 
this new policy, and they have praised us for our efforts. 
However, this is just a first step in addressing this very 
serious issue.
    We commend other scientific societies like the American 
Astronomical Society and the American Geosciences Institute who 
have put in place similarly strong policies. We also thank the 
other members of this panel for their hard work and the 
National Science Foundation for creating a new policy that we 
believe will provide a strong incentive for institutions to 
take sexual harassment seriously.
    Here are some additional measures we believe will be 
needed. One, universal policies against sexual harassment with 
clear and transparent reporting and follow-up procedures with 
consequences; two, providing an environment in which 
individuals are free to report and speak out against harassment 
without fear of retribution; three, smart training beyond that 
required for legal compliance, training that encourages 
bystander intervention and culture change rather than 
resentment and backlash; four, positive approaches such as 
awards or certifications for those institutions that publicly 
measure their progress towards positive work environment and 
gender equity issues. Lastly, legislation can be a powerful 
incentive and should include both positive and punitive 
measures to hold harassers accountable and encourage a safer, 
more inclusive environment for all scientists.
    We very much appreciate the Committee holding this hearing 
to understand and address some of the important steps we can 
collectively take and to bring attention to this critical and 
important issue. I'm happy to answer any questions you may have 
and look forward to working with you and your colleagues to put 
an end to sexual harassment in science.
    [The prepared statement of Ms. McEntee follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    Chairwoman Comstock. Thank you so much. And I thank the 
witnesses for their very powerful testimony and your very 
important work. I now recognize myself for five minutes for 
questions.
    Dr. Clancy, you talked about the victims and the science 
we've lost, and that's so powerful and you seeing those people 
and giving them a voice and knowing the work you're doing. One 
of the things that we are doing in Congress is having a 
workplace survey. What type of workplace surveys have you found 
to be most effective? I talked to a woman who implemented 
policies in the Navy that actually dramatically reduced things, 
and they really went in and thoroughly looked at first the 
whole culture everyone was kind of swimming in, both the 
workplace but then, you know, for them it was a base. You know 
they went to restaurants, they went to the bars, they went to 
the dorms, everywhere where people were to understand--and 
understanding they're very young people often, which is 
something you have in the situation with young scientists. The 
military has it. We have it here in Congress. How can we 
intervene before these things happen, and what are some of the 
policies you've found have been the most aggressive in 
prevention?
    Dr. Clancy. Sure. I mean that's a great question. I think 
that there are a number of ways that you can go at this sort of 
depending on the context. Like you pointed out, you know, when 
you have a bunch of young people together or when you're 
thinking about a military context versus, say, an astronomical 
observatory versus, you know, a field--an anthropology field 
school, there are different contexts that actually have to be 
considered. So the most important thing is to make sure that 
you're involving a subject matter expert in the creation of the 
survey. A lot of folks think that a survey is just, hey, it's a 
bunch of--let's just put a bunch of questions together and 
figure out what happens, but just like with any experimental 
protocol, bad questions lead to the development of bad data, 
and then it's actually hard to assess over time whether you're 
really seeing improvement or not.
    So climate surveys are a really great first step, 
especially if you're using subject matter experts. There are a 
couple of validated questionnaires already out there that 
people often sort of use and fold into their existing survey, 
and you can pick and choose them depending, again, on what you 
know about your context.
    As an anthropologist, I also really like a mixed-methods 
approach, so I think it's really important to make sure that 
you interview or do focus groups with folks so that you can 
learn more again about the particular context of that 
workplace.
    I think that that leads to prevention because of the ways 
in which first assessing what's going on helps you get a sense 
at what the problems really are, so, you know, for--again, for 
some workplaces, the culture might be like a real bro culture 
and for others it might be widespread incivility. And across 
the now three or four different work contexts I've started to 
look at, I can say that there are different historical and 
cultural contexts that lead to slightly different 
manifestations. So with a bro culture we might want to take on 
sort of why is it that people think they have to act macho to 
be good scientists? With incivility, we can be asking, well, 
why is it that professional--you know, we're considering 
professional conduct that is uncivil to be appropriate and 
respectful? So once we can start asking those questions, we can 
move towards change.
    Ms. Larsen. May I--I want to add to that that I think--you 
know, a lot of times because of the confusion over what 
harassment is, you know, I often tell people, you know, don't 
write a zero-tolerance policy until you're really clear on what 
you're not tolerating. And so starting from what is the conduct 
that is actually damaging to them, not worrying about whether 
it's legal or illegal under the law but really what are the 
things, what are the actions that are occurring that, you know, 
are really causing women to feel that they are being treated 
and are actually being treated differently, but really starting 
from that point of conduct versus conclusion about what that 
conduct is.
    Chairwoman Comstock. I wonder if there needs to be some 
kind of checklist sort of like when if you're going out and 
you're going to be alone and you're driving home or something 
and you think, okay-- you park in a certain place, you take 
certain actions, you're trying to protect yourself physically 
from safety and danger, but we don't often instruct, say, our 
children or young people to protect yourself in this type of 
environment and what to expect, and I think--you're coming in, 
say, as a college student or a graduate student with all kinds 
of different experiences, particularly in a science career 
where it involves a lot of studying and things and perhaps they 
haven't been engaged socially a lot and then they're put in 
these circumstances.
    I'm thinking of this checklist, you know, when you're 
socializing, say, with your colleagues, go with a buddy. What 
kind of things can we really--just sort of commonsense kind of 
things that our mom might tell us but that we haven't maybe 
thought of to prevent some of these things because you think 
culturally somebody from one part of the country and they come 
into a different situation or racially if people have different 
expectations, and it's just so many different approaches here. 
And I feel like a lot of times when these young people are 
getting into these circumstances, we just haven't prepared 
them. And how can we do that?
    Dr. Clancy. I certainly agree that some kind of checklist 
would be really important. I really think it's on the PI, the 
principal investigator or the boss or the director of the field 
site to be the one creating that checklist and the one 
responsible for it. So in our research that was published in 
2014, in field sciences we found that the majority of our 
respondents were not aware of a code of conduct or sexual 
harassment policy for their field site and a very small number 
of people who were actually harassed felt--even knew what the 
reporting mechanism was. So to my mind the bigger issue is that 
these behaviors are not--people don't tend to just 
spontaneously become harassers. It has to do more with the 
culture that they're in and whether it's permissive. So if the 
director----
    Chairwoman Comstock. And they're usually--the predators are 
repeat offenders, too.
    Dr. Clancy. They can be, yes. And I think they often are 
but they're not always. And it has to do with the fact that if 
the culture is permissive of that behavior, then it's much more 
likely to happen. So it really has to be the person in charge 
demonstrating leadership and making clear what's acceptable and 
not acceptable in both implicit and explicit codes of conduct.
    Chairwoman Comstock. And I know one of the things that 
we've heard in looking at this in Congress is when you have 
these new policies in place, usually you're going to see first 
a spike in complaints because people feel free to come forward 
now, but then if there is, you know, consequences and they see 
that and they now know that there's going to be action taken, 
there is then a reduction in both the activity in the first 
place and sort of the confidence that this is going to be 
handled. Is that consistent with what you've seen or what 
you've all----
    Dr. Clancy. Yes, absolutely across workplaces it's 
consistent that if you have consequences, not just that you 
claim to have them but that you actually have them, that people 
face sanctions, then you do see a reduction in harassment--or 
you see less harassment in those workplaces at least.
    Chairwoman Comstock. All right. Thank you so much. And I 
now yield to Mr. Lipinski.
    Mr. Lipinski. Thank you. I want to thank all of you for 
your testimony. I think I was particularly moved by Dr. Clancy, 
your testimony, because having been an academic, I understand 
the hierarchy and the--how those who are lower on the totem 
pole, those who are lower in status are relying on those who 
are above them for their career, for their entire career, 
whether you're a grad student or you're, you know, a faculty 
member. If you are--have a higher ranking, you have a lot of 
power over those below you. And I think that there is a 
cultural problem in general with those who are higher up 
sometimes being abusive. And that is--it's a terrible problem.
    I can't say that I suffered harassment at any point 
although I was in situations where things were said to me that 
were--did not make me comfortable. But I certainly heard 
stories from colleagues that were definitely harassment. And, 
you know, nothing that I heard that ever really came of that. 
And again, it's because of the hierarchy and because, you know, 
when you are a star, if you're considered a star academic, you 
are protected. And so this is something that really is--makes 
this even tougher when we're talking about academia.
    So I wanted to ask Ms. Davis about the--what NSF is doing 
now. So the proposed requirement you talked about says that 
grantee organizations need to report findings of sexual 
harassment to the agency. We have to make sure in doing this 
that NSF needs to make sure that such a requirement is not 
going to chill investigations of assault for fear of making a 
finding that jeopardizes grant money. Again, something that 
is--we need to be very careful about that.
    So I want to ask, how will the NSF enforce its 
requirement--well, first, will researchers, technicians, and 
students be able to report harassment directly to the NSF, and 
if not, how you ensure that grantee organizations have 
effective reporting mechanisms in place?
    Ms. Davis. Thank you. Yes, they will be able to report it 
directly. We have set up a portal so anyone can go to this 
portal whether it's a postdoc, a student, or if it's a faculty 
member and report directly to us. It will come directly to us.
    In regards to the chilling effect, we thought about that, 
we talked about it. We think that we're in a time now that--for 
universities to take the approach to have a chilling effect 
could be at their own peril if you see what is happening to 
universities. What we like about this new portal that we have 
is that anyone can report to us. So if a university has a 
finding, or if they have investigated and just decided the 
degree of what has happened, they're going to put the person on 
administrative leave. If they elect not to notify us, it could 
be the student that was involved, it could be a postdoc that 
was involved, it could be the community, it could be 
professional societies, anyone that could notify us and we 
would have like many compliance reviews of that situation.
    We had a situation recently where we were just made aware 
of something, and within two hours we were able to be on the 
telephone with the university and to begin addressing it right 
now before the policy is in place--the difference with the 
policy is that they will be required. But we learned through 
another means, we will still implement it right now.
    Mr. Lipinski. And how will you enforce the requirement, 
given that many victims sign nondisclosure agreements as part 
of their settlements?
    Ms. Davis. Thank you. We run into that situation, too, with 
nondisclosure agreements. We'll have a lot of back and forth, 
but what we're looking at is if you put that person on 
administrative leave, this is a term and condition. If they're 
not able to carry out their term as it relates to the research, 
we can actually have the university replace that PI that is on 
there, or we would do everything in our power to make sure that 
no student under contract is impacted. The enforcement part of 
it will be from the perspective of can they carry out the terms 
of the agreement?
    Mr. Lipinski. All right. Thank you. Very quickly, Ms. 
McEntee, scientific societies play an important role in shaping 
the culture in scientific communities. How can scientific 
societies best leverage their position within the community to 
bring about cultural change?
    Ms. McEntee. Well, thank you. You know, we think we have a 
lot of ability to work both within our society and with others. 
We view this as a community effort. We are establishing an 
ethics resource center that is providing--in collaboration with 
other scientific societies and research institutions--tools, 
resources, research, training that everyone in the community 
can benefit from. It'll also be a place where we can share best 
practices and what's working well to change this climate and 
will allow us to collaborate more broadly both within the 
scientific societies but also with colleagues here that are on 
this panel. And we also hope that many others will adopt 
policies as strong as ours that call harassment, bullying, and 
discrimination scientific misconduct because it harms 
scientific careers and the entire scientific enterprise.
    Mr. Lipinski. Thank you. I yield back.
    Chairwoman Comstock. Thank you. I now recognize Mr. 
Marshall for five minutes.
    Mr. Marshall. Yes, thank you, Chairwoman.
    It's hard to believe but 33 years ago today I was a second-
year medical student and decided to go into obstetrics. I know 
that because today is my daughter's birthday, our firstborn 33 
years ago, and as a medical student trying to figure out what I 
wanted to do and that was certainly a sentinel day. But what I 
didn't realize when I became an obstetrician was that I'd be 
spending 95 percent of my time with women. And certainly, I saw 
the world through their eyes. I got a glimpse through their 
world more so than many people do. And whether it was spousal 
abuse, I did over 100 rape exams one year as a resident, but 
certainly, this issue of sexual harassment is something maybe I 
would see more than other people. You know, why is a woman 
perfectly happy at a job, she sees me once a year, and she 
walked into my office and she quit a really good job. And, you 
know, they would kind of beat around the bush, but too often 
this was the reason.
    You know, I want to talk about being proactive rather than 
reactive and challenge you all. What can we do to be more 
proactive? I think about culture, and my concern is that 
there's a cultural acceptance in an institution this is more 
likely to go on. And certainly, we control the purse strings, 
we give grants through the NSF. You know, in sports we'll see 
if an institution has a constant disregard for the rules, like 
the NCAA, eventually, we give them the death penalty and you're 
done. You don't get any scholarships, you don't get any--in 
this case, any grant money--so it would be more than just the 
single person. You know, where there's smoke, there's fire.
    What are we doing to kind of get to institutions where this 
is a socially accepted norm rather than just one person? And 
maybe start with Ms. Davis and answer that question. What can 
we do to be more proactive rather than waiting for this 
complaint to be filed?
    Ms. Davis. Thank you. We believe we have several tools in 
being proactive, and one of those tools is our outreach to let 
them know from a title IX perspective when it comes to 
compliance what our expectations are. Beyond those 
expectations, if we see universities where we are seeing repeat 
problems over and over and over, when we go in and conduct 
these title IX compliance reviews. We could address those with 
the new term and condition that we have. We do not give the 
money directly to principal investigators. We give the money to 
the institution, so we can have these really hard conversations 
that may be difficult for the universities, which I believe 
we're at a time right now where even universities who've had a 
lot of complaints really can see that everybody----
    Mr. Marshall. Have you had any of those hard conversations 
with any universities or institutions?
    Ms. Davis. When we go on our Title IX compliance--yes, we 
have.
    Mr. Marshall. Good.
    Ms. Davis. We've had some of the conversations that--I 
wouldn't want to go into----
    Mr. Marshall. I understand.
    Ms. Davis. --specific names now that have resulted in some 
results that have made the harassment community a better 
community.
    Mr. Marshall. Okay. Dr. Clancy, you want to take a shot at 
that one, being proactive?
    Dr. Clancy. Certainly. So there--it turns out there's 
actually a pretty good literature on this. There are 
researchers who do work on what's called respect climates in 
the workplace. They're also called inclusion or diversity 
climates, some really great social scientists who conduct 
research to try to figure out how do we actually start with the 
culture and move forward from there. And what a lot of that 
research seems to show is that we need to do a lot more of the 
hard work, not just, you know, like slapping on a policy and 
saying, okay----
    Mr. Marshall. Exactly.
    Dr. Clancy. --sexual harassment is fixed but actually 
coming together as a group, you know, doing workshopping 
sessions for instance where you get together and ask, okay, 
what are our values? What are our shared values? What's 
important to us? What is the current culture of this 
organization? And is this the culture we want? So if it's very 
hierarchical, you know, which often happens in the sciences, is 
all of that hierarchy justified? So are there times where we're 
hierarchical for the sake of being hierarchical instead of 
doing it because of expertise or experience?
    And I think if we really encourage more science workplaces 
and more workplaces generally in the United States to ask these 
questions first, then they can start to put together value 
statements and do more values-into-action trainings instead of 
sexual harassment trainings, which just tell you don't do these 
behaviors. Values-into-action trainings and respect trainings 
say here's what we want a professional workplace to look like. 
Let's encourage each other to do these behaviors, and it 
incentivizes the positive behaviors.
    Mr. Marshall. Great. Ms. Larsen, go ahead.
    Ms. Larsen. Thank you. You know, a couple of things, I 
agree with everything. The challenges in--you know, in change 
management they often say that people don't change because they 
see the light; they change because they feel the heat, and 
there is no heat in academics, so there is no way to compel 
somebody to do exactly that unless they feel it.
    And one of the cases that I have been working on for now 
three years with a client, her department has been found over 
15 years by several external reports to have a terrible climate 
for women and to have it observed that women are leaving, 
including a NASA title IX investigation. There is no one to 
follow up and enforce the department making any changes. The 
department has done nothing in 15 years.
    Two years ago, a program review within the university done 
by the academic senate, which is where I say that we have a 
shared governance issue, you know, also found that this was 
still a problem, that women were leaving in large numbers. Two 
out of three of the women in this department went directly to 
that committee and said, you know, we don't think the 
department is taking this seriously; they're not doing 
anything. And the academic senate still closed that program 
review and basically said we'll review them again in three 
years. The senate has no accountability and responsibility for 
what goes on in the department, and the administrative 
structure has no ability because there--you know, this idea of 
departmental autonomy, they can't go in and compel a department 
do anything. So we have a problem with enforcement. I would 
like to see federal agencies effectively saying if I don't--we 
don't see changes, we will pull funding.
    And to the point about money, it is true that the money is 
given to an institution, but it is considered the PIs, and that 
money is abused all the time. I have seen so many cases where 
equipment is withheld from one person because they don't like 
them. This is happening to a tenured faculty member who was 
denied access to a lab that was paid for by federal money, and 
there is nothing that can be done about that. A reporting 
structure to say this person is abusing the funding that we 
had, again, whether or not it falls under a legal definition, 
they're abusing the funding and this happens far too often. And 
a reminder that it is the university's money, not the PI's.
    Mr. Marshall. Yes, thank you. And I yield back.
    Chairwoman Comstock. Thank you. And I now recognize Ms. 
Bonamici.
    Ms. Bonamici. Thank you, Madam Chair and Ranking Member, 
for holding this hearing, and thank you to our very impressive 
panel.
    Over the past several months we've seen so many survivors 
of harassment and abuse speak up, and it really is making a 
difference and I appreciate you're here to--that you are all 
here today. And no matter what the industry is, everyone 
deserves to work in a safe workplace.
    As policymakers on this Committee, we have to do everything 
we can to make sure that our scientists and researchers are 
able to do their work free from harassment and abuse. We talk a 
lot about getting more women in the sciences, but we need to 
not only get them in the sciences, we need to be able to keep 
them there when they get there. And a working environment 
that's free from harassment and abuse and power abuse will mean 
that researchers can focus their full attention on finding the 
next great scientific achievements. I thank Dr. Cordova for her 
leadership at the NSF on this issue.
    A few years ago a fisheries biology--biologist who's very 
passionate about her work came into my office with a serious 
issue. She and some of her female colleagues had experienced 
sexual harassment while conducting research on a ship owned by 
NOAA, National Oceanic and Atmospheric Administration. After 
reporting the harassment, this talented scientist had been 
effectively grounded from furthering her career. Her research 
was derailed. Her colleagues and her harasser knew that she had 
reported the harassment, and she was counseled against going 
back out to sea for her own safety. There seemed to be little 
investigation into her case at the time, her case and other 
women's cases.
    I contacted NOAA, including then-Administrator Dr. Sullivan 
who--Kathryn Sullivan, who took this issue very seriously, and 
with Dr. Sullivan's leadership, NOAA changed their policies and 
practices. They made it easier to report sexual harassment, 
they implemented new training, and they changed their 
investigation protocol. And I just thank Dr. Sullivan for 
really taking the lead on that.
    This investigation into this particular case was completed, 
and best of all, this talented scientist returned to sea. Since 
then, she's gone on three research cruises and she said, and I 
quote, ``For the first time in my career, I was able to focus 
entirely on my work.'' So it really does make a difference.
    So we have to do more to both prevent harassment and to 
make sure that victims can seek justice, and all of our 
agencies need to take a close examination of their practices 
and put into place these accountability measures that will 
focus on prevention and also justice for survivors.
    So, Dr. Clancy, your research talked about how women 
conducting research in isolated field sites are particularly 
vulnerable, so I want to ask you, Ms. Davis, and Ms. McEntee, 
can you talk about some particular protections that can be 
implemented at field research sites to keep scientists safe? 
And I want to save time for a question for Ms. Larsen as well.
    Dr. Clancy. Some of the first things are, at least in our 
most recent research, we had a paper come out in November of 
2017 that talked about the importance of having both implicit 
and explicit rules at the field site. So generally speaking, I 
think explicit rules are the best, you know, having an actual 
code of conduct of some sort, having a clear line of reporting, 
especially one that is third-party or independent of the PI 
who's there or whoever the director of the field site is, so I 
think that that's really important. But then I also think that 
the implicit rules like just getting everybody together on the 
first day and saying, okay, so here's what I think is 
appropriate behavior, here's what's inappropriate behavior and 
being very clear about both of those, so articulating those.
    Ms. Bonamici. I don't want to interrupt, but, Ms. Davis and 
Ms. McEntee, can you add anything to that for remote sites 
because I want to get to Ms. Larsen as well?
    Ms. Davis. Yes, and thank you for your dedication to this 
issue. We took it as a prevention and reporting approach to 
this issue, and so we have instructional videos on--for anybody 
who's at a field site, a ship, Antarctica, or any of those 
locations on actually how they report. We have a new web portal 
that we set up where anyone at these sites will know how to 
access information quickly, and we have several other steps 
we've taken--
    Ms. Bonamici. Terrific. I'm going to get to Ms. McEntee----
    Ms. Davis. Yes.
    Ms. Bonamici. --because I want to save time for Ms. Larsen.
    Ms. Davis. Thank you.
    Ms. McEntee. So we would add also we think you need 
training not just for those who are leading the expedition or 
the field but also for bystanders so they know how to act and 
you can--they can also implement programs like our Safe AGU 
where individuals are publicly identified as having the 
training to assist when someone is experiencing harassment.
    Ms. Bonamici. I think a bystander speaking up is important.
    Ms. Larsen, in 2011 President Obama released new guidance 
for the implementation of title IX by universities. It 
clarified that title IX cases are to be decided under a 
preponderance-of-evidence standard and impose a 60-day limit 
for concluding title IX investigations and introduce an appeals 
process for both parties. Last year, Secretary DeVos withdrew 
those updates, effectively reverting to the title IX guidance 
from 2001. The specifics of the 2011 guidance of course were 
debated, but ultimately, the goal was to make sure that title 
IX is actually protecting individuals from harassment and 
abuse.
    So to what extent has the 2009 guidance already led to 
institutional change, and how will withdrawal of that guidance 
affect title IX cases? And I noted also that apparently NSF 
used to refer title IX complaints to the Department of 
Education Office for Civil Rights, and even that was rescinded, 
so, Ms. Larsen?
    Ms. Larsen. You know, I think that--thank you. You know, I 
think that it wasn't--you know, I used to say that working at a 
university is like dog years; it takes seven years to 
accomplish what it--would normally take a year--
    Ms. Bonamici. Just like Congress I think.
    Ms. Larsen. So I think that it was, you know, slow to begin 
with, so by the time the--you know, the rescission happened, I 
think it was--it wasn't where I would've liked to see it in the 
first place, but I think the rescission did add a lot of 
confusion over, you know, what is the process and it reinforced 
this idea that it is two-sided. And I--you know, I absolutely 
believe in due process, and again, I want to be very clear that 
there's a difference between how we look at sexual assault and 
harassment, but it is--you know it reinforced this idea that 
it's a 50-50 problem and that, you know, we have to really 
watch out for both rights in an environment where the rights of 
the powerful are well, you know, protected by other ways. It--I 
think it did reinforce this idea that the victim is really not 
going to be supported well.
    Ms. Bonamici. Thank you. As a member of also the Education 
Committee, we'll probably follow up with you on that as we 
approach higher education at reauthorization. I thank you. I 
yield back, Madam Chair.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Beyer for five minutes.
    Mr. Beyer. Thank you, Madam Chair, very much and thank you 
very much for being here. As the--I have four sisters and three 
daughters, and so this is a very important issue at home.
    Dr. Clancy, in your testimony you emphasize the importance 
of addressing sexual harassment because it's the most prevalent 
and frequent form, and it's often a predecessor to more extreme 
behaviors, but then we also--there's been a lot of talk about 
culture. And some of the factors in your testimony, the fact 
that a student's or postdoc's career is entirely dependent on 
their advisor, that principal investigators are given complete 
control of the research funding, that departments have this 
autonomy, that I no longer want to be a college president. I 
just want to figure out--I had no control over all that money 
that was coming in. Are these structures--structural elements 
of the scientific community that can be changed, can be 
addressed and are these discussions that have been having 
within the National Academies?
    Dr. Clancy. So there are definitely some ways in which 
these structures can be addressed. I know that some 
universities are moving to a co-advisor model for instance. In 
fact in my department that's primarily what we do is we make 
sure that there are always two primary advisors for most of our 
students so that if there are ever difficulties with one, 
there's always a second avenue. I think empowering a Director 
of graduate studies to be able to work with faculty who are 
being a problem is another way to handle it.
    I think also just, you know, in terms of this fundamental 
culture change, I think part of what has to happen is faculty 
have to be willing to call each other out when we see bad 
behavior a bit more, so kind of to speak to Ms. McEntee's call 
for more bystander intervention training, just in general we 
need to be able to say, look, I don't think the way you're 
treating your student is appropriate, and I don't think that 
she should be retaliated against for, you know, doing whatever 
it is she's doing. And so to me those are sort of the big 
things that we can be doing on the ground.
    Mr. Beyer. Okay. Good. And that's sort of university by 
university or----
    Dr. Clancy. Yes. I mean I think there are also ways in 
which professional societies can maybe be addressing this and 
maybe Ms. McEntee or Ms. Davis would be able to address this as 
well.
    Mr. Beyer. Great. Thank you. Ms. Davis, you talked about 
NDAs, the nondisclosure agreements. Do they potentially permit 
serial abusers? And what's the--you know, when the abuser is 
not identified, what's the trade-off in terms of using NDAs 
versus the--you know, the good versus the bad there?
    Ms. Davis. Thank you. The nondisclosure agreements are a 
challenge when you're trying to get information about what 
happened. We know that's a challenge that we will probably be 
getting a lot of feedback on when we put our Federal Register 
notice out there. That's why we approached this from--can they 
fulfill the terms? This bolstered title IX is not a title IX 
where we're conducting the investigation and we actually need 
to know all of the particulars that happen. We really need to 
know can they still fulfill the terms of the agreement. That's 
why we took this first approach, and we are actually doing 
everything that we can do inside of NSF and NSF's control.
    Our second phase, is that the Director put a sexual 
harassment task force together, which is across the foundation. 
We will be looking at other things we can do inside, but also 
how we can go out and collaborate with our other federal 
science agencies. To the degree it comes to something that 
title IX needs to change, we'll be looking at that, too. 
Nondisclosure agreements can be challenging in a title IX 
setting, but we're approaching this from can you still fulfill 
the requirements whether we know all the details.
    Mr. Beyer. All right. Thank you. Ms. McEntee, it's been 
suggested that one of the things the #MeToo movement may do in 
a pernicious way is that men will simply stop hiring and 
promoting women. You know, I think Sheryl Sandberg wrote that 
she's heard rumblings of a backlash in the tech industry where 
women are already significantly underrepresented. We just read 
that Florida legislators and lobbyists have told the Miami 
Herald that many male legislators won't meet with women 
privately. So is this a danger in academia also where, you 
know, one-on-one relationships are very important with the 
advisors or with the principal investigators? Will fear of 
accusations against male researchers exclude female students 
from mentoring opportunities?
    Ms. McEntee. Well, that fear already exists, and certainly, 
if there's more fear of backlash, that will just reinforce the 
culture that we all know needs to change. That's why sanctions 
are important. We also need to start rewards and recognitions 
for departments and universities and others who are starting to 
adopt really proactive codes of conduct and are putting in 
place effective resources and training and mechanisms like co-
advisors where we're starting to see a change, and then we need 
to continue to fund research to track progress and share those 
best practices. This is going to take a community effort, and 
we can't allow fear of backlash to stop us from trying to 
address and create the kind of positive work environment we 
need for science.
    Mr. Beyer. I agree. Thank you very much. Madam Chair, I 
yield back.
    Chairwoman Comstock. Thank you. And I now recognize Mr. 
Hultgren for five minutes.
    Mr. Hultgren. Thank you, Madam Chair. Thank you all so much 
for being here today, but more importantly, thank you for your 
really important work and the mentors that you are. This is an 
important hearing so that we can make sure that federal 
agencies are following the law, and proper protocols are in 
place to protect students and researchers from abuse.
    I have a STEM Scholars program that we started in our 
district in Illinois, the suburbs of Chicago. This is our 
second year of our STEM scholars. We've got 30 high school 
students from around the seven counties that I represent that 
are part of our STEM scholars program. I meet with them once a 
month. We go to different places throughout Northern Illinois 
to see application of STEM fields in our communities. It's been 
an amazing time for me to learn from them what sparked their 
interest but then also for them to see some great opportunities 
right close to home for them.
    One of the things I'm most excited about this year with the 
30 students that we have, the majority of our STEM scholars are 
young women, so I'm encouraged by that and I'm learning from 
them and just excited about their passion and want to do 
everything that we can to encourage all young people that we 
need them in our science and technology fields. I know so much 
more can be done to spark an interest and foster passion for 
STEM, but all of this can be so dishearteningly be undone if 
young women especially find themselves in an academic setting 
with a culture of sexual harassment and abuse. If people leave 
these fields because of abuse, then we are losing the very best 
and brightest we need to be supporting at this time. We need 
institutional safeguards in place so that victims can feel safe 
reporting abuses, and abusers can be identified and removed.
    Dr. Clancy, if I could address my first question to you, we 
know that only 23 percent of women with STEM degrees stay in 
STEM fields. What impact do you think harassment and 
discrimination play in women leaving the STEM fields?
    Dr. Clancy. Unfortunately, I think it explains most of it. 
You know, for a while a lot of folks tried to make the claim 
that motherhood is the reason that a lot of women don't stay in 
science because the nature of the job is so difficult, and 
really, that just hasn't been borne out. I had fact have my--
I'm a breastfeeding mom and my daughter is in the next room 
right now. I had to bring her with me in order to come to this 
hearing. So I don't think that motherhood is what's holding 
women back in the sciences. I really think it's the daily 
indignities of being told that you are less than.
    And again, I want to emphasize that a lot of times these 
experiences are, you know, small incivilities and small 
slights, so it's how do you--how exactly do you report a 
systemic problem where you're always the one asked to take 
notes at the faculty meeting or you're always the one asked to 
make the coffee or, you know--or you're always the one who's 
ignored or left off the emails or somehow not given access to a 
really important piece of equipment. Those kinds of things are 
really hard, I imagine, to adjudicate and really hard to report 
on the side of the victim. So to me, again, these broader 
prevention measures to encourage women to provide more peer 
mentoring to each other and to work together and for them to 
feel like their work environment actually cares about these 
issues and won't retaliate against them if they try to speak 
up, those are the things to me that I think are really key.
    Mr. Hultgren. I think that's a really good point. And 
you're right, too, that so much of it is--it might seem at the 
time, well, this isn't a huge deal, but it is a huge deal, 
because it's got to just have the cumulative effect of feeling 
pressed down or excluded, and we've got to do everything we can 
to change that, to stop that.
    Ms. Larsen. May I?
    Mr. Hultgren. Yes, that would be great if you would.
    Ms. Larsen. I just--I want to add, you know, I have been, 
you know, in private practice and also in my years in the 
university I--they may exist but I have never met a woman who 
told me that she chose to get out of science because she just 
decided that it wasn't for her. But I have a client right now, 
in fact two in the same lab, who were told, I don't know, 6 
months ago when they informed their PI that they were pregnant 
that mothers couldn't make it in research and he didn't want to 
waste his resources on them, and they both suddenly lost their 
funding. And when the title IX officers investigated, the 
people that they asked--because the excuse always is they just 
weren't good scientists--are all the other people who were 
funded on the same money who know that if they actually said 
anything different than what the PI has said, they lose their 
funding, too, so--
    Mr. Hultgren. It's horrible. Ms. Davis, if I can address--I 
just have a minute left or less. The federal definition of 
research misconduct was last revisited over 20 years ago. It 
was altered to take out detrimental research practices from the 
definition. Is it time to revisit whether sexual harassment and 
other abusive behaviors should be part of the federal 
definition of research misconduct? And then with a few seconds 
left, I'd love to from you, and if others have thoughts, I'd 
love to hear from you as well.
    Ms. Davis. Thank you. We've had a lot of discussion around 
this, and fortunately, our Director, actually chaired a working 
group on that issue back in the 1990s. We see sexual harassment 
as having a vehicle to address this, title IX. When they were 
looking at definitions for fabrication, falsification, 
plagiarism, there was nothing--no vehicle to address it. We are 
not taking anything off the table. We know--we looked at what's 
within NSF's scope, and some of these things will be across the 
whole federal sector as it relates to research.
    The thing that we were concerned about is having a 
consistent way of handling sexual harassment. If you have some 
parts of it in the research misconduct area being handled, and 
other areas where there's sexual harassment issues handled 
outside, it could possibly strip down the law, so we were 
concerned about that. So those are some of the things we talked 
about saying right now; it seemed like our energies would be 
better suited doing something swiftly that we could do now and 
then look at what we can do across agencies.
    Mr. Hultgren. Well, I've run out of time.
    Ms. McEntee. If I could add, please?
    Mr. Hultgren. Yes, real quick, sure.
    Ms. McEntee. I would say that we're extremely proud that 
our policy that was approved in September of last year defines 
harassment, bullying, and discrimination as scientific 
misconduct.
    Mr. Hultgren. Thank you. Again, thank you all so much. I've 
got probably 10 more questions I would love to ask but just 5 
minutes goes by way too fast--or 6 minutes, 20 seconds goes by 
way too fast, but I may follow up in writing if that's okay. 
And we really do want to help. We need you. We need your 
brilliance and expertise, and this has to stop. And so we just 
one all our best and brightest young people to see that we want 
you to excel, and anything that gets in the way, we've got to 
work to stop it. So thank you.
    Thanks, Chairwoman, for your indulgence. I yield back.
    Chairwoman Comstock. Thank you. And I did want to note how 
important it is that that has been changed. The policy on 
scientific misconduct includes this. It's really important, and 
I did just want to take a point of privilege to--you know, this 
issue of backlash and worrying about women not getting hired 
because we start to hear a little bit of that. It's important 
that everyone understands that is illegal. That is already 
illegal. You can't say, oh, I'm not going to hire women now 
because of this or that, so it's important, because I've seen 
this even around here where reporters are asking us that, and 
we know we've had problems in the media, so we want to make 
sure that everyone understands, under current law, that is 
illegal and you can't say now the way you're going to deal with 
harassment is not to hire women. So thank you for letting me 
jump in on that.
    And I now want to recognize Mr. Loudermilk for five 
minutes.
    Mr. Loudermilk. Thank you, Madam Chairman, and thank you 
for having this hearing.
    Ms. Davis, I want to go back to something that Dr. Clancy 
brought up, which was Dr. Marchant with Boston University. And 
during--the first question I have is during that time period, 
did the NSF have the authority to immediately remove him or 
anyone from a grant if someone's been put on administrative 
leave or is under investigation?
    Ms. Davis. The authority that NSF has with the university 
is we would work with the university to find a replacement PI 
if the PI is on admin leave or something, and is not meeting 
the terms and conditions of the grant. The authority--what 
we're doing now, the authority didn't change. The only thing 
that's different is that they have to report to us.
    Mr. Loudermilk. Okay. So during that time period you did 
have the authority to--okay.
    Ms. Davis. If I can make that clear----
    Mr. Loudermilk. Yes.
    Ms. Davis. --the authority to work with the university for 
them to do the removal.
    Mr. Loudermilk. Right.
    Ms. Davis. Yes.
    Mr. Loudermilk. Okay. And thank you for that clarification.
    Ms. Davis. Yes.
    Mr. Loudermilk. I and of course many Members have concerns 
about the recent interaction between Boston University and the 
NSF regarding this matter, and I actually have some emails 
between NSF and Boston University I'd like to kind of walk 
through. And, first of all, let me say thank you for the NSF 
and Boston University providing these documents to the 
Committee during our investigation. That isn't something that 
we get a lot of cooperation on with a lot of other agencies, so 
I do appreciate that.
    Mr. Loudermilk. And so, again, this is an email chain 
between the NSF and Boston University regarding the alleged 
sexual harassment by a prominent Boston University geologist 
Dr. Marchant. The first slide, as you can see, that we already 
have up, Boston University found that Dr. Marchant did sexually 
harass a graduate student while on a research expedition in 
Antarctica, which Dr. Clancy has already brought up here today, 
and he was immediately put on administrative leave, so hats off 
to Boston University for doing the right thing at that time. 
And Boston University sent an email to the NSF on December 5 
notifying the NSF that Dr. Marchant currently had an NSF grant.
    Then, on December 11, 6 days later after a phone 
conversation with the NSF, the university followed up with an 
email asking for clarification. Apparently during the phone 
call, there was some information passed along that he could not 
remain as the principal investigator. But they were asking for 
clarification from why they would not allow him to continue as 
principal investigator on the grant.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Mr. Loudermilk. So if we bring up the next slide, then 
December the 18, the NSF stated in this email there is no NSF 
policy that supports the statement, quote, ``That NSF would not 
allow Dr. Marchant to continue as principal investigator while 
he's on administrative leave.'' Even though NSF wanted to 
remove Dr. Marchant from the grant, apparently, it was thought 
there was no policy to allow that to take place.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
  
    
    Mr. Loudermilk. Further, and a little bit disturbing, on 
January 22 the university then indicated that--in this email--
that due to NSF's inability to force them otherwise, the 
university would keep Dr. Marchant on the grant, which is what 
Dr. Marchant wanted and kind of disturbing to me is that he 
continued to want--in this email--he wanted to continue to 
mentor another graduate student.
    [Slide.]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Mr. Loudermilk. So then if we go to the last slide, it 
wasn't until January 25 that the NSF got clarification from 
upper management that Dr. Marchant was required to be removed 
as the principal investigator of the grant. This was almost 2 
months after the initial December 5 notification by Boston 
University to the NSF that he had been placed on administrative 
leave.
    So my first question is why did it take so long to 
determine that Dr. Marchant needed to be replaced as PI?
    Ms. Davis. Thank you. What you just shared with us here is 
what we have been addressing. This is unchartered territory. We 
have typically tried to handle title IX issues within a 
stovepipe of title IX, and so what happened here, is that the 
communications were from the program offices, and the program 
offices were interacting back with the universities. They were 
talking to each other and they thought that there was nothing 
we can do. Well, the Director put together a sexual harassment 
task force, and that task force includes people across the 
whole foundation. What we learned in that task force is that 
communication was taking place between the universities and 
some of our personnel outside of our title IX role, and so as a 
result of that, we have put in a communication to all employees 
if anybody reaches out to you about a title IX matter, you 
immediately notify my office and we will coordinate it.
    As a result of that and the lessons we learned from this 
situation right here, we are now--last Thursday, we learned of 
an issue of a title IX person being put on administrative 
leave. Within two hours of learning that, we were able to pull 
together a team, contact the university, and find out what was 
going on on the issue, and as a result of that, we've actually 
made a modification in our Federal Register notice that we're 
going to put out. This is unacceptable for us, and it's a 
lesson learned and we've acted upon it.
    Mr. Loudermilk. Well, thank you for that, and I think 
you've just answered my follow-up question on that, does your 
current policy give you the ability to address this 
immediately? And it sounds like not only can you, you have 
acted on that as well.
    But a question back to the December 18 email, it actually 
said, ``I apologize for the delay in getting back to you. I 
discussed your question''--and when I say your email----
    Ms. Davis. Yes.
    Mr. Loudermilk. --regarding NSF's, not yours personally, 
because I don't know who actually sent it--but it said, ``I 
apologize for the delay in getting back to you. I discussed 
your question with our policy office in the Division of 
Institution and Award Support,'' and they feel that it is an 
internal Boston University issue, which would depend on the 
conditions of the administrative leave, and then it followed up 
as there is no policy. Was the problem in that policy office 
that they weren't aware of the ability to remove? I mean, where 
was the breakdown?
    Ms. Davis. The breakdown is that it's still stovepipe 
approaches. We have typically handled title IX issues within my 
office, and the grants and terms is handled in the policy and 
the grants division. So no one really--it's almost like what 
we're seeing in office of research in title IX. We were not 
communicating across. We've really put the brightest minds 
together to try to talk about how to tackle this issue, and in 
doing that, that's when we learned, well, wow, we have the 
opportunity in our grants and our award--terms and conditions 
right now to go back to the university and say that this is 
not--if a person is being put on administrative leave and they 
cannot adhere to the terms, we can do something. And so it was 
a matter of communication.
    One was the science office doing it. When they reached out 
to that office they hadn't been--this is unchartered territory. 
They had not been dealing with issues around sexual harassment 
in a grants and terms way.
    Mr. Loudermilk. Okay. Well, thank you. One last question 
and--is the NSF reliant on--totally reliant on institutions to 
appropriately deem what is considered the beginning of an 
investigation?
    Ms. Davis. Actually, we created the NSF.gov/harassment 
portal, and the reason that is a very key is because we want to 
do a lot of outreach so people can know to reach out to us and 
let us know if an issue is going on. If the university is 
conducting an investigation, failed to tell us something or 
failed to conduct an investigation, we can be notified by 
numerous sources----
    Mr. Loudermilk. Okay.
    Ms. Davis. --including the media, and so it's almost 
another tool we have to have--to catch violators I would say.
    Mr. Loudermilk. And thank you.
    Ms. Larsen. May I----
    Mr. Loudermilk. I see my time has long expired.
    Ms. Larsen. May I please respond?
    Mr. Loudermilk. Sure.
    Ms. Larsen. I want to make a really important point about 
the Marchant case. And I actually had dinner not too long ago 
with one of the women who brought forward the allegation, not a 
client, just a friend in San Diego. It took her until she was 
tenured, years later before she felt safe enough to actually 
bring that allegation. And I wonder how many women were out in 
the field having rocks thrown at them in the meantime, and so 
this is a problem we must address, that people have to feel 
safe to report this. Having rocks thrown at you isn't always 
thought of as sexual harassment, right? It's not sexual but it 
is harassment, and I--and that is an issue as well.
    I had a third point and I don't remember it. But I think 
the time that it takes, you know, is really something--oh, I 
know what I was going to say. She changed her field, so she 
went from researching in the Antarctica to researching in the 
Arctic to avoid this person. She went to the opposite pole to 
avoid him.
    Chairwoman Comstock. Wow. That is--thank you all so much 
for your important testimony. I wanted to pick up on some of 
those points in terms of--you know, we've talked a lot about 
the impact on the individual women and how their lifetime 
careers change, ``polar opposites,'' and also how they're 
losing income over a long time. And, Dr. Clancy, I thought your 
point about, this sort of the myth that it was children--and I 
can't wait to see your little one here, and great that you're a 
nursing mom, that's a great thing, too. But it is bigger than 
the individuals who are losing their career here. As a country 
and as the science, we're losing that bigger picture and the 
talent, and the cost to our economy. So I think this is such a 
human rights issue, it's a sexual harassment issue, but we 
really need to look at this, how it impacts wages and the 
individuals and the economy in the bigger context.
    So I know we had a hearing last year where we--in another 
committee that I'm on--where we found that companies with three 
or more women in senior management functions scored higher in 
leadership, accountability--what we're all talking about here--
and innovation, so that's innovation, you know, moving our 
economy forward.
    And Fortune 500 companies with the highest representative 
women on their boards outperformed generally, so this means our 
country would be doing better if these women were advancing at 
better rates, you know, at the rates that they're going to 
school. And then women CEOs in Fortune 500 companies have 200 
percent better returns on the S&P 500. So this is costing our 
economy. I know we often say--some people might feel like, oh, 
we're going to be good and do this. This isn't just doing the 
right thing, which is first and foremost very important. This 
is economically an issue that is costing our economy if we 
don't get this right. So this makes a big impact. You know, 
women live longer. If women aren't getting their--into their 
careers and getting to stay in them and making that money, this 
is costing the country in so many different ways.
    So I thank you for your just fabulous research and work and 
insight and how you're making all of these connections. You 
know, with the example of the woman who had to wait until she 
was tenured, you know, I imagine just with the work that you 
all are doing and having to--the intervention factor, women 
intervening can sometimes be a difficult thing for you even 
when you're studying this. So thank you so much for--and please 
keep in touch with us. I appreciate the great work, lots of 
good representation here of women scientists here, so thanks so 
much.
    The record will remain open for two weeks and written 
questions can be submitted. Thank you.
    [Whereupon, at 11:44 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions



                   Answers to Post-Hearing Questions
Responses by Ms. Rhonda Davis

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Responses by Dr. Kathryn Clancy

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



Responses by Ms. Kristina Larsen

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

Responses by Ms. Christine McEntee

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 <all>
</pre></body></html>
